TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      The Tax Exempt and Government
                   Entities Division Is Making Progress to
                      Detect and Deter Fraud Within Its
                  Customer Base, but the Impact Cannot Be
                          Determined at This Time



                                         September 2005

                              Reference Number: 2005-10-161




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax return/Return Information




 Web Site          | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                September 30, 2005


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION



 FROM:                          Pamela J. Gardiner
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – The Tax Exempt and Government Entities
                                Division Is Making Progress to Detect and Deter Fraud Within Its
                                Customer Base, but the Impact Cannot Be Determined at This Time
                                (Audit # 200510012)

 This report presents the results of our review of the Tax Exempt and Government Entities
 (TE/GE) Division’s fraud program. The overall objective of this review was to assess the impact
 of TE/GE Division management’s efforts to detect and deter fraudulent activity within their
 customer base by following up on recommendations made in our Fiscal Year (FY) 2003
 Treasury Inspector General for Tax Administration audit report1 and by reviewing actions
 planned or initiated by TE/GE Division management since FY 2003.

 Synopsis
 Since our FY 2003 audit report, the Internal Revenue Service (IRS) has learned that
 tax-exempt and government entities have been increasingly involved as accommodation parties2
 to abusive shelters. The IRS Commissioner has expressed his commitment to increasing an
 enforcement presence to combat abuse within the TE/GE Division customer base and has
 included this emphasis in the IRS’ Strategic Plan for 2005-2009, issued in June 2004. The


 1
   The Tax Exempt and Government Entities Division Should Pursue Additional Methods to Identify Potential
 Fraudulent Activities (Reference Number 2003-10-217, dated September 2003).
 2
   The term “accommodation party” is used to describe the tax-exempt entity’s involvement in a transaction that does
 not necessarily affect the entity’s primary function but is designed to provide tax benefits to a third party that is a
 taxable entity.
                   The Tax Exempt and Government Entities Division Is Making
                 Progress to Detect and Deter Fraud Within Its Customer Base, but
                          the Impact Cannot Be Determined at This Time


Strategic Plan establishes 4 key objectives aimed at enhancing enforcement of the tax law over
the next 5 years, including 1 that focuses directly on the tax-exempt and government entities
sector: To deter abuse within tax-exempt and governmental entities and misuse of such entities
by third parties for tax avoidance or other unintended purposes.
We determined each TE/GE Division functional office has individually taken steps to improve
its fraud programs. For example, all offices have started coordinating with other IRS divisions,
to varying degrees, to develop fraud cases on individuals or organizations that misuse tax-exempt
entities. In addition, in March 2005, TE/GE Division representatives from four of the Division’s
five offices (the Employee Plans (EP) and Exempt Organizations (EO) functions and the Indian
Tribal Governments (ITG) and Tax Exempt Bonds offices) and Office of Chief Counsel met with
representatives from the Criminal Investigation function, the Small Business/Self-Employed
Division, and the IRS Special Counsel to establish a Fraud Oversight Work Group in an effort to
improve coordination of potential fraudulent activity within their respective areas.
Because of these improvements to its fraud program, the TE/GE Division made several potential
fraud referrals3 and was developing or assisting other IRS Divisions to develop additional
potential criminal fraud cases at the time of our audit. TE/GE Division referrals can include a
single promoter, but there can be many entities associated with the fraudulent transaction. For
example, in the past one referral had several hundred entities associated with the case. Although
the number of criminal referrals has been limited, overall compliance has benefited because of
the increase in civil actions such as denials or revocations of tax-exempt status, Internal Revenue
Code (I.R.C.) Section (§) 67004 penalty assessments, and referrals to other IRS operating
divisions. However, most of the improvements and actions taken for the fraud program were
recent or still in the process of being implemented. As a result, we could not determine the
overall impact these improvements have had on the TE/GE Division’s efforts to detect and deter
fraud.

Recommendations
We recommended the Commissioner, TE/GE Division, ensure all functional offices strengthen
their fraud programs by performing an assessment to determine those areas most vulnerable to
fraud and abuse within their respective customer bases; provide fraud awareness training
(including technical examples) to employees; alert TE/GE Division customers of the potential
fraud scenarios that have been identified; and enhance existing inventory systems to track and

3
  Because of the limitations imposed by I.R.C. § 6103 (2004), we did not include the details of specific case
information developed by the TE/GE Division for referral to other business units or to the Criminal Investigation
function for development for criminal prosecution.
4
  I.R.C. § 6700 (2004) was originally intended to allow the IRS to impose penalties against promoters of abusive tax
shelters, but, in 1989, Congress stated the agency could apply the penalties to municipal bond transaction
participants that are responsible for ensuring compliance with tax law or tax regulations.
                                                                                                                   2
                The Tax Exempt and Government Entities Division Is Making
              Progress to Detect and Deter Fraud Within Its Customer Base, but
                       the Impact Cannot Be Determined at This Time


monitor potential fraud cases and fraud referrals and the results of the examinations,
investigations, and referrals.

Response
The Commissioner, TE/GE Division, agreed with our recommendation and is implementing
corrective actions. Specifically, the Directors of the EP and EO functions and the ITG and
Federal, State and Local Governments offices will conduct assessments to determine those areas
(including fraud indicators for those areas) most vulnerable to fraud and abuse. In addition,
TE/GE Division management will continue to provide fraud training, including technical
training, to those employees within TE/GE Division Determinations or Examinations office
staffs that require such training but have not yet received it. TE/GE Division executives and
senior-level employees will continue to use speeches, newsletters, interviews, postings to web
sites, and other customer education and outreach functions and devices to warn TE/GE Division
customers of fraudulent practices that emerge within the TE/GE Division communities and that
have come to TE/GE Division management’s attention. The TE/GE Division is planning to use
two new inventory systems and will employ them, to the degree possible, to track fraud cases
while they remain in TE/GE Division’s control. Management’s complete response to the draft
report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.




                                                                                              3
                      The Tax Exempt and Government Entities Division Is Making
                    Progress to Detect and Deter Fraud Within Its Customer Base, but
                             the Impact Cannot Be Determined at This Time




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Tax Exempt and Government Entities Division Has Made
          Several Criminal Fraud Referrals but Cannot Determine the Impact
          of Its Efforts on Detecting and Deterring Fraud ...........................................Page 4
                    Recommendation 1:........................................................Page 17


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 19
          Appendix II – Major Contributors to This Report ........................................Page 21
          Appendix III – Report Distribution List .......................................................Page 22
          Appendix IV – Management’s Response to the Draft Report ......................Page 23
                  The Tax Exempt and Government Entities Division Is Making
                Progress to Detect and Deter Fraud Within Its Customer Base, but
                         the Impact Cannot Be Determined at This Time




                                          Background

Although the majority of taxpayers and Internal
Revenue Service (IRS) customers comply with the              Tax fraud is the intentional
Internal Revenue Code (I.R.C.), a few willfully attempt     wrongdoing    on the part of a
                                                              taxpayer, with a specific
to evade their tax obligations by committing acts of         purpose of evading taxes.
fraud. Tax fraud is the intentional wrongdoing on the
part of a taxpayer, with the specific purpose of evading
taxes. Tax Exempt and Government Entities (TE/GE)
Division customers are generally exempt from paying income tax, so tax fraud is generally not
committed by the tax-exempt entity. However, individuals can and have used TE/GE Division
customers as a vehicle to facilitate tax fraud.
Customers of the TE/GE Division represent a significant aspect of tax administration, with
approximately 3 million entities controlling about $8 trillion in assets and paying over
$300 billion in employment tax and income tax withholding. The fact that these entities are
exempt from Federal income tax is sometimes seen by others as an opportunity to use the exempt
entity for personal gain. TE/GE Division training material provides the following example of an
individual using a tax-exempt entity for personal gain:
        An individual was the sole shareholder of a small insurance sales company. The
        individual donated the stock of a small insurance company to an
        I.R.C. Section (§) 501(c)(3)1 tax-exempt organization, which was an I.R.C. § 509(a)(3)
        supporting organization, and took a large deduction for the donation on the individual’s
        Individual Income Tax Return. The donor was the president of the I.R.C. § 501(c)(3)
        organization that received the stock. The stock was later determined to be worthless
        since the company was just a shell. After the individual donated the stock and took the
        deduction for the contribution, another company was created to conduct the insurance
        sales business. The company whose stock was donated went out of business.
In September 2003, we issued an audit report on the TE/GE Division’s fraud program.2 In Fiscal
Year (FY) 2003, the TE/GE Division was taking action to improve its fraud program. In
developing its fraud program, the TE/GE Division decided not to develop a division-wide
program to address fraud within its customer base. Instead, each of its functional offices
(Exempt Organizations (EO), Employee Plans (EP), and Government Entities functions)
independently developed its own processes to identify and address fraud and to communicate

1
 I.R.C. § 501(c)(3) (2004).
2
 The Tax Exempt and Government Entities Division Should Pursue Additional Methods to Identify Potential
Fraudulent Activities (Reference Number 2003-10-217, dated September 2003).
                                                                                                          Page 1
                    The Tax Exempt and Government Entities Division Is Making
                  Progress to Detect and Deter Fraud Within Its Customer Base, but
                           the Impact Cannot Be Determined at This Time



fraud awareness to employees, customers, and other IRS offices. The functional offices were
given the latitude to develop their own programs because of the belief that processes developed
independently would better serve the extremely varied customer base and regulatory authority.
We recommended the need for TE/GE Division management to:
•   Formalize plans for providing fraud training for fraud coordinators and scheduling training
    for the compliance staff.
•   Identify areas most vulnerable to potential criminal fraud activity within each of the
    TE/GE Division functions.
•   Evaluate externally and internally identified allegations or issues of potential fraud, including
    abusive tax schemes, to determine the appropriate action to take, including fraud referral to
    the IRS Criminal Investigation (CI) function.
•   Coordinate with the CI function to determine which potential fraud issues should be
    prioritized for referral to the CI function.
Since that review, the IRS has learned that tax-exempt and government entities have been
increasingly involved as accommodation parties3 to abusive shelters. In June 2004, the IRS
Commissioner testified before the United States Senate Committee on Finance that the vast
majority of tax-exempt entities carry out their valuable role in full compliance with the letter and
spirit of the law, but the IRS was concerned some entities were using their tax-exempt status to
achieve ends that Congress clearly did not intend when it conferred the privilege of tax
exemption.
The IRS Commissioner has expressed his commitment to increasing an enforcement presence to
combat abuse within the TE/GE Division customer base and has included this emphasis in the
IRS’ Strategic Plan for 2005-2009, issued in June 2004. The Strategic Plan establishes 4 key
objectives aimed at enhancing enforcement of the tax law over the next 5 years, including 1 that
focuses directly on the tax-exempt and government entities sector: To deter abuse within
tax-exempt and governmental entities and misuse of such entities by third parties for tax
avoidance or other unintended purposes.
The TE/GE Division currently has both a fraud program and an Abusive Tax Avoidance
Transactions (ATAT) program; however, these programs cover cases at the point where
indications of fraud or ATAT are identified. When referrals are received or indications of abuse
are initially identified, it is not always known if the case should be worked as a fraud case or as
an ATAT case. These cases are generally reviewed by the Examinations office within each
TE/GE Division functional office. If fraud indicators are identified, the cases will be worked in

3
  The term “accommodation party” is used to describe the tax-exempt entity’s involvement in a transaction that does
not necessarily affect the entity’s primary function but is designed to provide tax benefits to a third party that is a
taxable entity.
                                                                                                               Page 2
                The Tax Exempt and Government Entities Division Is Making
              Progress to Detect and Deter Fraud Within Its Customer Base, but
                       the Impact Cannot Be Determined at This Time



the fraud program. If ATAT indicators are present, the cases will be worked in the ATAT
program. It is also conceivable that a case could have characteristics of both fraud and tax abuse
and would then be worked jointly by both programs.
Because TE/GE Division customers are tax-exempt entities, TE/GE Division management
normally refers potential fraud cases to other IRS operating divisions or other Federal
Government agencies having jurisdiction over the individuals and corporations involved in the
potential fraud. The IRS CI function investigates allegations of fraud for the IRS and develops
cases for criminal prosecution.
This review was performed at the TE/GE Division EO and EP functions and the Federal, State,
and Local Governments (FSLG), Indian Tribal Governments (ITG), and Tax Exempt Bonds
(TEB) Headquarters offices in Washington, D.C.; the EP function Examinations office in
Baltimore, Maryland; the EO function Examinations and Classification offices in Dallas, Texas;
the ITG Operations, Planning, and Research office in Buffalo, New York; and the TEB
Examination office in Denver, Colorado, during the period February through July 2005. The
audit was performed in accordance with Government Audit Standards. Detailed information on
the audit objective, scope, and methodology is presented in Appendix I. Major contributors to
the report are listed in Appendix II.




                                                                                           Page 3
                   The Tax Exempt and Government Entities Division Is Making
                 Progress to Detect and Deter Fraud Within Its Customer Base, but
                          the Impact Cannot Be Determined at This Time




                                       Results of Review

The Tax Exempt and Government Entities Division Has Made Several
Criminal Fraud Referrals but Cannot Determine the Impact of Its
Efforts on Detecting and Deterring Fraud

Since our prior report in FY 2003, each TE/GE Division functional office has individually taken
steps to continue to improve its fraud programs. For example, all offices have started
coordinating with other IRS divisions, to varying degrees, to develop fraud cases on individuals
or organizations that misuse tax-exempt entities. In addition, in March 2005, TE/GE Division
representatives from four of the Division’s five offices (the EP and EO functions and the ITG
and TEB offices) and Office of Chief Counsel met with representatives from the CI function, the
Small Business/Self-Employed (SB/SE) Division, and the IRS Special Counsel to establish a
Fraud Oversight Work Group in an effort to improve coordination of potential fraudulent activity
within their respective areas. This increased coordination between TE/GE Division offices and
other IRS divisions provides IRS management the opportunity to develop issues relating to both
the tax-exempt entity and the individual or organization perpetrating the potential fraud.
Because of these improvements to its fraud program, the TE/GE Division made several potential
fraud referrals4 and was developing or assisting other IRS Divisions to develop additional
potential criminal fraud cases at the time of our audit. TE/GE Division referrals can include a
single promoter, but there can be many entities associated with the fraudulent transaction. For
example, in the past one referral had several hundred entities associated with the case. Although
the number of criminal referrals has been limited, overall compliance has benefited because of
the increase in civil actions such as denials or revocations of tax-exempt status, I.R.C. § 67005
penalty assessments, and referrals to other IRS operating divisions. However, most of the
improvements and actions taken for the fraud program were recent or still in the process of being
implemented. As a result, we could not determine the overall impact these improvements have
had on the TE/GE Division’s efforts to detect and deter fraud. We also observed that, while
TE/GE management has provided assistance to other IRS operating divisions and Federal
Government agencies in developing criminal fraud cases, they could not provide us with the

4
  Because of the limitations imposed by I.R.C. § 6103 (2004), we did not include the details of specific case
information developed by the TE/GE Division for referral to other business units or to the CI function for
development for criminal prosecution.
5
  I.R.C. § 6700 (2004) was originally intended to allow the IRS to impose penalties against promoters of abusive tax
shelters, but, in 1989 Congress stated the agency could apply the penalties to municipal bond transaction participants
that are responsible for ensuring compliance with tax law or tax regulations.
                                                                                                             Page 4
                 The Tax Exempt and Government Entities Division Is Making
               Progress to Detect and Deter Fraud Within Its Customer Base, but
                        the Impact Cannot Be Determined at This Time



overall amount of assistance, status, and/or outcome of the cases. TE/GE Division management
needs a method of tracking its potential fraud referrals, including its collateral assistance, to other
operating divisions and Federal Government agencies, to be aware of the issues and the status of
the referrals as they are being developed for prosecution. Information such as this might enable
TE/GE Division management to more quickly identify additional cases that are similar to ones
being developed for prosecution.
The following sections present TE/GE Division management’s efforts to address
recommendations from our FY 2003 audit report and to strengthen their fraud program, and
additional initiatives either started or implemented since FY 2003 that are designed to enhance
their ability to detect and deter fraud.

The EO function criminal fraud program

Since the prior audit, EO function management has made progress in establishing a criminal
fraud program within their function and is planning additional actions to improve their ability to
detect and deter fraud within their customer base. Their initial efforts have resulted in several
potential fraud cases that the EO function is working jointly with other IRS divisions. The
following are the actions taken or planned for the EO function’s fraud program:
Assigning responsibility for the fraud program – Several years ago, EO function
Examinations office management designated an agent assigned to the EO function Mandatory
Review office as the EO function Fraud Coordinator. In the fall of 2004, EO function
Examinations office management designated a senior revenue agent as the second EO function
Fraud Coordinator. A formal job description has not been developed; however, the EO function
Fraud Coordinator serves in several different capacities, including an “advisor” or liaison to
assist EO function agents with questions or concerns regarding potential fraudulent activity. The
EO function Fraud Coordinator also serves as a sounding board, coach, and liaison to the
SB/SE Division fraud technical advisors (FTA) when it is determined there is a potential fraud
issue. The EO function Fraud Coordinator also played a key role in developing interim
procedures for making fraud referrals that were shared with EO function employees in March
2005 (see the following section for additional information about fraud training).
Communicating and providing training to EO function employees on their responsibility to
detect and deter fraud – EO function management developed and delivered a training program
for its front-line employees and managers to develop skills essential to identify potential fraud
and abuse, detect emerging trends, and refer suspected wrongdoers for criminal prosecution. A
pilot course was held in September 2004 and nearly all of the EO function’s applicable
employees received the training in March and June 2005. At the time of our review, EO function
management was planning to train the rest of the EO function staff. The training course was


                                                                                               Page 5
                 The Tax Exempt and Government Entities Division Is Making
               Progress to Detect and Deter Fraud Within Its Customer Base, but
                        the Impact Cannot Be Determined at This Time



conducted with the assistance of instructors from the CI function. Specifically, the training
material presented the following:
•   For Examinations office agents, the course material included examination techniques to help
    agents recognize potential fraud during the examination of exempt organizations. The course
    material also included indicators of fraud that may be identified during reviews of Return of
    Organization Exempt From Income Tax (Form 990) and Exempt Organization Business
    Income Tax Return (Form 990-T).
•   For Determinations office agents, the course material provided examples of fraud indicators
    so the agents could react quickly, since screeners of applications are the first line of defense
    against fraud. The course material also included information for identifying and reassigning
    “specialty” cases (e.g., credit counseling, down payment assistance, disaster relief) that have
    a high potential for fraud to the appropriate EO function specialists who have been trained to
    work those issues.
Communicating with EO function customers about fraud issues – EO function management
shared its FY 2005 Work Plan with all IRS employees via the TE/GE Division Intranet web
sites, Town Hall meetings, TE/GE Division newsletters, and other communication sources. The
Work Plan was also distributed to Congress, State officials, tax practitioners, and other industry
stakeholders through various communication vehicles, including media briefings, mailings, and
postings to the general public. The Work Plan addresses EO function management’s critical
enforcement initiatives (e.g., combating ATATs, antiterrorism efforts, excessive compensation,
credit counseling) and planned actions for FY 2005 and the establishment of the Financial
Investigations Unit (FIU) to address fraud and tax avoidance cases. EO function management
also recently developed a section on its Intranet site for all of its critical initiatives. Each critical
initiative has its own page that summarizes the issue, why it is considered critical, key technical
contacts, and other useful information.
Other information about schemes involving potentially fraudulent activity within the exempt
organization sector was made public through press releases and notices. Also, the IRS
Commissioner, the TE/GE Division Commissioner, and EO function executives have made
presentations to a variety of audiences to address the proliferation of abuse within the tax-exempt
sector and the EO function’s intent to combat such abuse.
Jointly developing potential fraud cases – EO function management has worked with other
IRS offices to improve the IRS’ ability to detect and deter fraudulent activity within the EO
function customer base. EO function management held meetings with SB/SE Division Lead
Development Center (LDC) management and Large and Mid-Size Business (LMSB) Division
Office of Tax Shelter Analysis management to share information about fraud and abuse. An EO
function revenue agent was detailed to the LDC to educate LDC staff about EO function issues
and to review files with potential EO function customer involvement. Since the detail, EO
function management noted an increase in referrals from the SB/SE Division LDC. In

                                                                                                  Page 6
                 The Tax Exempt and Government Entities Division Is Making
               Progress to Detect and Deter Fraud Within Its Customer Base, but
                        the Impact Cannot Be Determined at This Time



June 2004, the EO function Fraud Coordinator made a presentation at the FTA training seminar
sponsored by the SB/SE Division. The presentation included discussions about the EO
function’s Fraud Referral Procedures, indicators of fraud within the EO function customer base,
and known abusive schemes within the EO function customer base.
An EO function revenue agent recently secured the necessary security clearance and became
actively involved with the CI function’s LDC. The revenue agent conducted a class on the
Form 990 for the CI function analysts assigned to the LDC. The revenue agent also participated
in meetings with other offices, such as the EO function Research and Analysis office, to assist in
identifying potential problem applications that have been submitted for a determination letter.
EO function management has worked with State charity officials for several years to improve its
partnership to combat abuse within tax-exempt organizations. While the IRS cannot disclose tax
return information (e.g., fraud investigations, examinations, and revocations of tax-exempt
status) to State charity officials, at least 38 States require exempt organizations to file all or part
of the Form 990 with the State so the States can ensure compliance with State laws. In a letter to
the National Association of State Charity Officials, dated June 14, 2004, EO function
management reiterated their desire to find additional ways to increase cooperation and improve
information sharing with the States.
EO function management coordinates their efforts to identify exempt organizations participating
in terrorism with the Treasury Executive Office for Terrorist Financing and Financial Crimes,
State charity officials, and the CI function. In October 2004, EO and CI function management
made a presentation at the Annual National Association of Attorney General/National
Association of State Charity Officials Seminar to discuss antiterrorism. The training was
developed to help State charity officials recognize what kind of information they should look for
and how to decide what to do with that information.
In addition to the above, EO function management established the FIU in April 2005 to improve
their ability to deter or detect fraudulent transactions by charitable organizations. EO function
management has selected the FIU management staff and the Unit is conducting analyses, but the
Unit was not fully operational at the time of our review. When fully staffed with approximately
20 employees, including fraud specialists, forensic accountants, and agents with expertise in
identifying fraud and tracking foreign grant activities, EO function management anticipates the
FIU will further strengthen working relationships with the CI function and help channel fraud
referrals more effectively and efficiently.
The EO function management does not have a system in place to monitor their fraud program.
At the time of our audit, EO function management advised us they were developing or had
developed nine potential fraud cases for referral to other offices. They worked with the SB/SE
Division on six of the cases and worked with or referred five of the nine to the CI function.
Monitoring and tracking potential fraud cases and fraud referrals – The EO function is
currently unable to systemically track the number of potential fraud cases and referrals made. In
                                                                                                Page 7
                   The Tax Exempt and Government Entities Division Is Making
                 Progress to Detect and Deter Fraud Within Its Customer Base, but
                          the Impact Cannot Be Determined at This Time



addition, EO function management advised us they have not received feedback on some of the
cases they referred to other IRS operating divisions, and some of the cases are not yet being
tracked because they are still being prepared for referral to the CI function.

The EP function criminal fraud program

EP function management continues to develop a criminal fraud program within their operation
and is planning additional actions to improve their ability to detect and deter fraud within their
customer base. Their initial efforts have resulted in referral of several potential fraud cases that
the EP function is working jointly with other IRS divisions. The following are the actions taken
or planned for the EP function’s fraud program:
Assigning responsibility for the fraud program – The EP function Determinations and
Examinations offices work together to identify and refer cases with indications of fraud to the
appropriate office for further development. The EP function Determinations office reviews
applications for exempt status6 (Form 5300 series).7 When indications of inappropriate activity
are identified, the application is forwarded to the EP function Examinations office for review and
development of the fraud issue. EP function management designated the manager of the Special
Review section as the Fraud manager. The Fraud manager is responsible for developing the EP
function Examinations office fraud program, which also includes coordinating with other IRS
divisions and TE/GE Division functional offices about potential fraudulent issues relative to the
employee plans sector. In addition, a Fraud Coordinator has been designated to handle potential
fraud referrals to other IRS operating divisions, including the SB/SE Division and the
CI function.
Communicating and providing training to EP function employees on their responsibility to
detect and deter fraud – EP function Determinations and Examinations office management
have developed and distributed fraud referral procedures to employees. The EP function
Examinations office has discussed fraud issues affecting employee plans on a monthly basis. In
addition, EP function Examinations office management has developed fraud training for
employees.
•   EP function Examinations office management, with the assistance of the TE/GE Division
    Office of Chief Counsel, the SB/SE Division FTAs, and the CI function, developed training
    to help employees identify and address fraud and abuse that occurs, or could occur, in
    employee plans.


6
  EP function specialists analyze the applications to determine if the employee plans are established in a manner that
meets current laws and are substantially compliant with the I.R.C. and any applicable Revenue Procedures.
7
  The Forms 5300 series returns include Application for Determination for Defined Benefit Plan (Form 5300) and
Application for Determination Upon Termination (Form 5310).
                                                                                                              Page 8
                 The Tax Exempt and Government Entities Division Is Making
               Progress to Detect and Deter Fraud Within Its Customer Base, but
                        the Impact Cannot Be Determined at This Time



    The 2-hour training material provides employees with a basic understanding of the difference
    between civil and criminal fraud, general potential fraudulent indicators relative to employee
    plans, and EP function Examinations office fraud procedures. In addition, the training
    material provides EP function Examinations office agents with investigative techniques for
    recognizing and developing potential fraud issues when examining employee plan cases.
    The material also includes examples of potential fraudulent activity when reviewing specific
    expenditures and investments and other books and records. The training is included in the
    EP function Examinations office’s Continuing Professional Education scheduled for the
    summer of 2005.
•   In July 2004, the EP function Examinations office’s Fraud Coordinator attended the 5-day
    SB/SE Division fraud training. Additionally, the Fraud Coordinator conducted fraud
    awareness presentations to two EP function Examinations office field groups. These fraud
    awareness presentations consisted of an overview of basic criminal fraud indicators and the
    EP function Examinations office fraud referral procedures.
•   The July 2004 edition of the EP function Examinations Programs Review Quality Newsletter
    included an article on how to uncover fraud during the initial interview while examining an
    EP function return. This Newsletter is available to employees via the Intranet.
•   EP function Determinations office developed training material based on indicators of
    inappropriate activity previously identified from applications for exempt status. This
    information was presented in a training class on February 23, 2005. The material identifies
    how the employees should refer cases if similar indicators are identified. Subsequent to the
    class, 20 referrals have been made to the EP function Examinations office for further review.
Communicating with EP function customers about fraud issues – In January 2005, the
Commissioner, TE/GE Division, communicated the EP function’s new emphasis in addressing
compliance issues, including fraud, abusive schemes, and standards of professional conduct to
some members of the EP function customer base. The Commissioner also requested that EP
function customers partner with the EP function by referring potential inappropriate activity. In
March 2005, EP function Examinations office and EP function Customer Education and
Outreach office management also began meeting to develop a communication strategy to assist
in carrying out this new emphasis. The Director, EP, and the Director, EP Examinations,
delivered a message similar to that of the Commissioner, TE/GE Division, on multiple occasions
during FY 2005 at conferences, at small gatherings, and during interviews with external
publications.
Jointly developing potential fraud cases – In the past, the EP function Determinations office
has identified and referred several potential fraudulent cases to EP function Examinations
management for further development. The EP function Examinations office has worked with the
IRS SB/SE Division, the CI function, and the Servicewide ATAT Committee to improve the
IRS’ ability to detect and deter fraudulent activity within the EP function customer base. In

                                                                                           Page 9
                     The Tax Exempt and Government Entities Division Is Making
                  Progress to Detect and Deter Fraud Within Its Customer Base, but
                           the Impact Cannot Be Determined at This Time



addition, an.EP function Examinations office representative is participating in the TE/GE
Division and CI function Fraud Oversight Work Group. At the time of our audit, EP function
management advised us the were develo in or had develo ed six otential fraud cases8 for
referral to other offices.



 Monitoring and tracking potential fraud cases and fraud referrals - The EP function
.Examinations office Fraud Coordinator is responsible for tracking the number of potential fraud
 cases and referrals made to other IRS operating divisions and functional offices and for
 submitting a monthly report about the status of potential fraud activity to the EP function
 Examinations office Fraud manager. In addition, EP function Examinations office management
 prepared a Request for Information Services to develop unique status codes on the IRS database
 for cases held in suspense for potential fraud development and acceptance by the CI function for
 criminal investigation. EP function management advised that, when implemented, the new status
 codes will enhance their ability to monitor and track fraud cases and fraud referrals.
We identifi,ed one additional area that needs strengthening within the EP function's fraud
program.
•	 EP function management has not performed an assessmene to determine those areas
   (including fraud indicators for those areas) most vulnerable to fraud and abuse within the EP
   function customer base.

The FSLG office criminal fraud program

FSLG office management has established a limited criminal fraud program, including assigning
a Fraud Coordinator and putting limited resources to fraud enforcement activities. In addition,
they have made four fraud referrals to the SB/SE Division. The Director, FSLG, advised us that
the FSLG office has jurisdiction only for employment tax issues, including the identification of
errors or omissions during employment tax examinations involving governments. As such, they
have not conducted any type offraud assessment and were not aware of any situations where
potential criminal fraud has occurred in areas under their jurisdiction. If indications of potential
fraud are identified, the information is forwarded to the appropriate IRS operating division with



8 This does not include potential fraud cases referred by the EP function Determinations office thatwere outside the
time period of this audit. These earlier cases had not been resolved as of the time of this audit.
9 EP function management is currently performing an assessment of 79 market segments to identify areas of high
risk for examination in each particular market segment. However, fraud indicators were not included in the market
segment analysis.

                                                                                                            Page 10
                 The Tax Exempt and Government Entities Division Is Making
               Progress to Detect and Deter Fraud Within Its Customer Base, but
                        the Impact Cannot Be Determined at This Time



responsibility for further development. The following are the actions taken or planned for the
FSLG office’s fraud program.
Assigning responsibility for the fraud program – FSLG office area managers periodically
perform research of media sources to determine if there is an impact on Federal taxation for the
municipality when individuals are suspected, indicted, or prosecuted for committing fraudulent
acts in their official capacities for governmental entities. If leads are identified that may result in
a tax consequence for a municipality, they are forwarded to the FSLG office Operations,
Planning, and Review staff to open an examination on the municipality.
Communicating and providing training to FSLG office employees on their responsibility to
detect and deter fraud – FSLG office management has provided general fraud referral training
to employees but has not provided technical fraud training due to their belief that fraud does not
exist in their customer base.
•   In March 2004, the Director, FSLG, established the FSLG office Knowledge Sharing Group
    to address emerging issues and to share skills and knowledge with other employees. The
    Group is currently analyzing a potential fraud issue.
•   In January 2005, an FSLG office area manager attended a 4-day fraud seminar conducted by
    the SB/SE Division. FSLG office management included the manager’s feedback about the
    training on its Intranet site. In July 2004, another FSLG office area manager attended the
    5-day SB/SE Division fraud training.
•   During the April 2005 Continuing Professional Education training, the FSLG office Fraud
    Coordinator discussed draft FSLG office fraud procedures (guidance that became formal in
    May 2005) and the specific fraud leads referred to the SB/SE Division. However, this
    training was general in nature and not designed to include FSLG office technical issues.
•   In May 2005, FSLG office management developed interim guidance for employees to follow
    when they identify potential fraudulent activity.
Communicating with FSLG office customers about fraud issues – FSLG office management
advised us their customers are victims of fraud rather than perpetrators. As such, the Director,
FSLG, has not specifically informed customers of potential fraud scenarios. However, the
Director, FSLG, advised us that several presentations were made to their customers where laws
and procedures governing the FSLG community are discussed (these laws and procedures, if not
adequately carried out, could constitute fraud).
Jointly developing potential fraud cases – FSLG office management has established a working
relationship with the SB/SE Division as part of their limited fraud program. In June 2005, FSLG
office management and SB/SE Division Fraud Policy and Field Operations management initiated
a process for FSLG office employees to refer potential fraudulent activity to the SB/SE Division.
In FY 2005, FSLG office management referred four leads to SB/SE Division staff for fraud

                                                                                               Page 11
                 The Tax Exempt and Government Entities Division Is Making
               Progress to Detect and Deter Fraud Within Its Customer Base, but
                        the Impact Cannot Be Determined at This Time



development. In addition, FSLG office management began participating in the TE/GE Division
and CI function Fraud Oversight Work Group in June 2005.
Monitoring and tracking potential fraud cases and fraud referrals – FSLG office
management does not track the status of potential fraud referrals because the referrals involve
SB/SE Division, not FSLG office, customers. Instead, FSLG office management relies on
SB/SE Division Fraud Policy and Field Operations function management to notify FSLG office
management about potential fraudulent activity involving an individual working for or acting on
behalf of an FSLG office customer (e.g., a municipality).
We identified two additional areas that need strengthening within the FSLG office’s fraud
program.
•   FSLG office management has not performed an assessment to determine those areas
    (including fraud indicators for those areas) most vulnerable to fraud and abuse within the
    FSLG function customer base.
•   The FSLG office needs to work more proactively with its customers and other IRS offices to
    detect potential fraud involving FSLG office customers.

The ITG office criminal fraud program

ITG office management has established a criminal fraud program within their operation and is
planning additional actions to improve their ability to detect and deter fraud within their
customer base. Their initial efforts have resulted in several potential fraud cases that the ITG
office is working jointly with other IRS operating divisions and offices. The following are the
actions taken or planned for the ITG office’s fraud program.
Assigning responsibility for the fraud program – ITG office management designated a field
specialist as the Fraud Coordinator. The Fraud Coordinator is responsible for assisting other ITG
office managers and agents in the development of potential fraud issues within the ITG office
customer base.
Communicating and providing training to ITG office employees on their responsibility to
detect and deter fraud – ITG office management developed and provided training to help
employees identify and address fraud and abuse that occurs, or could occur, in tribal
governments.
•   During June 2004 through May 2005, all employees received a 4-day training course,
    Gaming Compliance Training for Indian Tribal Enterprises, developed by the ITG office
    staff. This training provided instructions on detecting fraud, tax shelters, abusive schemes,



                                                                                           Page 12
                       Tha T&'X ifxe.7iipi. alli'i aO,rern~'TiilntEntlih.::s £1v:'Jsion Is Ji,,&king
                    Prog;-''6'S,,- to liJet:pcf t;1Il:./ Det'6~' Fraud Wit'hi.'i Its CUI;tomer S!iiSe~ bui
                                   ..'11::-> Imj;:Jif,,'o;;t (iannoi be Deii:i!rmineii iit This Hme



       United States Cod~ ,tu .S.C.'~ Tide 31 abu:3es,w and ltle iJJegnl use of the status o,r Indj2in tribes
       to evade lax~)ti0n within I:Tid~'Zjli] Gaming 81ld ovtrtjight fe"r Tndi;;m Gaming opcn'ttions. The
       traini'l1B materitDl als(;provid~;d cxzJrriples of the tncs ufviol~;,(icns that crm occur, k!cntiJiea
       the indivioLDals ,vl1o 'in;,y cOritiTnit the: vioIHijcn~" iii~',~ltJded the indicl'jtors of potDI~Uai
       fraudulent activit)'" and p:iGv1!ded ernplc)'c:es 'with in:;ervie'(,'ing: tccimiques to uncover
       rotcnt1fi' fJaodulent activity Dnd thcITG -uJtke's irut>;rirn frmx.i refernjl procedures.
•	 By AU:glBst 2005" ITO oi'TI,r:;e matn2Jgement plans fer aU /U)me Detect'lon and Preventuon Team
   (ADAPT) spedali3Ls to zJttend iheT'cdcr:;ll "EJureau)f1nvesligtJtiol1 (FBI) trainbg oni Cflsino
   Crimes GIllc1 an olitside: vemlc/s COU'ise on casino lDCiiting. In t~c Jan 0{2005, the ITG
   officc"s f\aud Coordinator is sdHiduled to provide bT£nd jury training to ADAPT spccis~ist!>.
•	 In FY 10-196, ITG ofi'it:e ril&inslgement plfms to provide expert-whncsstrainin;g to AD,'iF'T
   speci81ists 8nrl siJ'l. ernploy,cj~S fren thE 'IE}) otTice. Tlte training \vil! be conducted by SBfSE
   Dh'it>ion eroploye.f.'s.
CommiU'lflcatung witJ. rrG oftke cnSi'Tnuers l>it:OlJt fiJ8LiC:1 i[\SUiS -- ITG ofl'ice maiiisgenent has
8cornrrmnication i:\tratcgy iO cCluc",je its ctJsWmer bfJSC C'iboct fWLC and abuse to irnpmvc its
fraud progrmn.
..    A quarter'ly ruews~en"ir i~ lorovided W e'lctt ti'ibul Bovernmcnt and includes articles aboui fl'm:d
      and abuse. In two instances, members oU' different tribdgovcrmnents sent infmmatioll·.tems
         , " in          ~,- -.' ":1 0,;'.; r -"C ",        1

     L-	                                                ---J Tn FcbmzJry ane: June: 2004, rrc, onice

      management aliKi' nwdc fraud presentQtions to twe of tl1\;; JaTI';>3cst regional tribal govenlments
      in Hile couner]. Tlle iiJresentLtion inctLJdcI~ ~m O')t;;Jv~e";" of the' AD.'\PT, a description ofactlual
      th:md §chemeg'· dctecte:o \vif:Jhl tribal government\, &Tld flU invitatL:n to F2Jrlncr:;'1itb tilt: rIG
      ofYicc to ccrnbatrraod and nb"Jse.
•	 ITG office manag'~True'TH hm nlZ)((© crimird tt:X fraud ElVfZJl'erlC9S pn::'se.rHaikms during ihe
       FBI's Casino C:T1meS tmining sessions on four SCp"Ji@tC occf:lsions. Additional presentations
       art: scJICdukd dLring the 3urrnn"r ofFY 2005 ,md durililg T'Y 2006. Consequently, the FBI
       referred to the ITG office ~' I,R.C. 'fide 31 ,-;;as't;s iir'!0bdrJg~m agi!/cgl;ic amoWIt of
       $142 illliJ'Jion. The ADA?T" togttht;r \ovith (h~ SD/SE Pivi§.ien" is rompleting the
       anti-money If.llmde,f'iJl~;, e:'im1'l'IJ1ti'!OlI1S; the, ~B/SE Division is r"osponsible fOJ referr'.rJg the
       cases to tl1>:: CI funcf,oiTl, if applicoJblc.
•	 ITO office rnulmgement w'OJkecl w:th (,'VO iribi:Jl ;government dlicials and :nade a presentation
   about glDming crimes to ibe S,[VS} J:livision ::mti-rnclKY Im.mdCi.'ing unit


N U.S.C. Title 31 (2004) - Spediic111ly, itbu~-e~, oli' thz: Emlk Secrecy ACL, Yub. L. No. L1l-:08, 84 Slat. 11 i 4 to 1124
{I 970) (cudified t'JS liIrle:nC)ed in sa(tterea sect',clhs of 12 U.S.C., 1S U.S.c., nnd j 1 U,S.c.} Regulf.ltions lor the Bank
St;crtcy Act, @lId oiherrell1teo !\Ultute}i, fC'::;:< I C.F.R. § 1031.1 1-10377 r:002);
                                                                                                                     Page 13
                     The Tax Exempt and Government Entities Division Is Making
                  Progress to Detect and Deter Fraud Within Its Customer Base, but
                           the Impact Cannot Be Determined at This Time



Jointly developing potential fraud cases - rTa office management has a strategy to establish
partnerships with other agencies and IRS offices to improve its fraud program. ITG office
management and staff participate in the FBI's National Indian Gaming Working Group and the
National Indian Gaming Commission's (NIGC) Indian Working Groups in Arizona, California,
Minnesota, New Mexico, and Oklahoma.
ITO office management visited the SB/SE Division LDC to share information about how the two
functions can work together to address fraud and abuse within tribal governments. As a result,
the ADAPT and the SB/SE Division LDC are working together on tour different LR.C. § 6700
investigations, and it is anticipated each investigation will result in referrals to the CI function.
Three ofthe four investigations involve non-Federally recognized tribal governments illegally
obtaining Federal taxation relief. In addition, ITG office management developed a working
relationship with the CI function to improve its criminal fraud program. As a result, CI function
management designated an analyst within their tinancial crimes unit to work with the LTG office
on potential fraud issues. At the time of our aud it, the potential fraud cases being worked jointly
with other IRS offices and other Federal Government agencies included the following:
    1
•

•
•
•	 The CI function referred to the ITG office an information item for development.
In addition, ITG office management established the ADAPT to work criminal tax fraud issues,
abusive tax shelter activities, U,S.c. Title 31 abuses, and issues related to the use of tribal
entities by third parties to avoid proper Federal tax reporting and oversight of transactions within
tribal governments. The ADAPT also works joint investigations with other Federal Government
agencies such as the FBI, the Inspector General for the Department of the Interior, the NIGC,
and other IRS operating divisions and offices, including theCI function.
•	 The ADAPT has its own classitier 11 to develop an inventory of potential fraud cases and to
   assign these cases to ADAPT specialists. The ADAPT classifier is responsible for
   developing fraud cases from information items received from both internal and external
   sources. At the time of our review, the ADAPT classifier had assigned 25 potential fraud
   cases to the ADAPT specialists.



1\ A classifier is responsible for evaluating information items for workload selection, prioritizing inventOly for
assignment to field groups, and recording the results of compliance and enforcement actions taken by field
specialists.                                       .

                                                                                                               Page 14
                 The Tax Exempt and Government Entities Division Is Making
               Progress to Detect and Deter Fraud Within Its Customer Base, but
                        the Impact Cannot Be Determined at This Time



•   Eight field specialists, including the ITG office’s Fraud Coordinator, are assigned to the
    ADAPT. These specialists are working cases, including those that involve the improper
    distribution of per capita payments to tribal members, credit card abuse among tribal leaders,
    embezzlement of tribal revenue, improper conversion of tribal assets, Federal unemployment
    tax abuse schemes, and illegal claims of Federal recognition by local tribal governments for
    Federal taxation relief.
•   The ADAPT specialists are also developing nine cases identified by ITG office field
    specialists for possible criminal fraud referrals.
Monitoring and tracking potential fraud cases and fraud referrals – ITG office management
uses an Access® database and Excel® spreadsheet to track the number of potential fraud cases and
referrals made.
We identified one additional area that needs strengthening within the ITG office’s fraud
program.
•   ITG office management has not performed an assessment to determine areas (including fraud
    indicators for those areas) most vulnerable to fraud and abuse within the ITG office customer
    base.

The TEB office criminal fraud program

Because of the unique situation with tax-exempt bonds, TEB office management considers the
potential for abuse on all examinations. As a result, the TEB office’s fraud program includes
both civil and criminal fraud. TEB office management advised us almost all of the TEB office
examinations involve potentially abusive transactions, and some include the potential for fraud.
Over the past 2 years, approximately 50 percent of TEB office agents’ time has been devoted to
abusive arbitrage investigations, and approximately 40 percent of the agents’ time has been
devoted to I.R.C. § 6700 penalty cases and fraud cases. Examinations for violations of
I.R.C. § 6700 are related to promoter misconduct and generally result in civil penalties, but they
can also result in potential criminal fraud. According to TEB office management, at the time of
our audit, most of the 37 TEB office agents had 1 or more abusive cases in their inventory. The
following are the actions taken or planned for the TEB office’s fraud program.
Assigning responsibility for the fraud program – In 2001, a senior TEB office group manager
was appointed as the TEB office Fraud Coordinator. The manager is also a participant on the
TEB office I.R.C. § 6700 Committee and responsible for assisting other managers and agents in
developing potential I.R.C. § 6700 examinations, getting approval to work I.R.C. § 6700 cases,
and evaluating cases for referral to the FTA or the CI function. The manager is also responsible
for coordinating with the CI function.


                                                                                           Page 15
                The Tax Exempt and Government Entities Division Is Making
              Progress to Detect and Deter Fraud Within Its Customer Base, but
                       the Impact Cannot Be Determined at This Time



Communicating and providing training to TEB office employees on their responsibility to
detect and deter fraud – TEB office management developed a training course, Procedures and
Techniques for Working Abusive Transactions. The training material was provided to all TEB
office agents in August 2004. The course addressed I.R.C. § 6700 issues and included topics that
covered burden of proof, computation of penalties, summonses, and other general information
about fraud. The Director, TEB, advised us the TEB office identified arbitrage as the area of
highest risk and enforcement focus. Training for TEB employees was provided in this area and
resulted in a significant criminal fraud referral.
In May 1998, the IRS established a tax-exempt bond Focus Group, comprised of agents,
managers, and counsel, which currently reports to the Director, TEB. The Focus Group meets
with TEB office agents in an educational setting once per quarter and conducts inprocess case
reviews to provide guidance to TEB office revenue agents and managers on specific cases. The
Focus Group is knowledgeable about cases across the country and is in a position to help identify
potentially abusive and/or fraudulent cases during field visits.
Communicating with TEB office customers about fraud issues – TEB office management has
routinely made fraud and abuse presentations at seminars, conferences, and conventions for its
customer base, including the National Association of Bond Lawyers, National Counsel of State
Housing Authorities, American Bar Association, and other State and Federal associations. Many
of the presentations made by TEB office management and actions taken by the IRS regarding
abusive bonds have received media attention and have been published in various news articles.
In addition, TEB office personnel were often interviewed in professional trade publications about
abusive bond-related issues.
Jointly developing potential fraud cases – The TEB office used a variety of techniques to
identify schemes, abusive transactions, and/or fraud. Internet research of public databases allows
the TEB office to use very narrow search criteria to identify related cases, including cases
promoted by a single bond attorney. Newspapers, trade journals, and other media sources were
also reviewed regularly for potential fraud leads. The TEB office coordinated with the SB/SE
Division, CI function, Securities and Exchange Commission, National Association of Securities
Dealers, Municipal Securities Rulemaking Board, and various offices of State Auditors for leads
on abusive and/or fraudulent transactions.
The TEB office has approximately 100 potentially abusive cases under investigation and
approximately 38 current ongoing investigations involving I.R.C. § 6700, as well as
investigations into abusive bond transactions in which I.R.C. § 6700 examinations have yet to
start. In addition, the TEB office has referred eight attorneys to the Office of Professional
Responsibility, which can disbar a practitioner from practice before the IRS. Although the
majority of the TEB office’s ongoing investigations involve abusive bond transactions, there
were several fraud referrals made by the TEB office in the past 2 years.


                                                                                          Page 16
                      The Tax Exempt and Government Entities Division Is Making
                   Progress to Detect and Deter Fraud Within Its Customer Base, but
                            the Impact Cannot Be Determined at This Time



At the time of our audit, TEB office management advised us they were developing or had

developed seven potential fraud cases l2 for referral to other offices. They worke,I":-'''-LL'......................------,

                                                                                                    •     1

                                                                                     In addition,
' - -__--=-=--=---=--=------:--==--=--;-------=-::-:--=-=~:_:__,___;_-__:___::_:_---____;__:___l
the TEB office is assisting the CI function and LMSB Division involving potential criminal
activity relating to tax-exempt bonds.
Monitoring and tracking potential fraud cases and fraud referrals - The TEB office Fraud
Coordinator is responsible for monitoring and tracking the I.R.C. § 6700 penalty investigations,
criminal fraud referrals, and collateral assignments ofTEB office agents who assist the SB/SE
Division FTAs, CI function, and other agencies. The TEB office Fraud Coordinator uses manual
and electronic spreadsheets to monitor the civil and criminal activities within the TEB office.


Recommendation

Recommendation 1: The Commissioner, TE/GE Division, should further strengthen the
TE/GE Division's various fraud programs by ensuring all functional areas have taken the
following actions:
•	 Performing an assessment to determine those areas (including fraud indicators for those
   areas) most vulnerable to fraud and abuse within the TE/GE Division customer bases.
•	 Providing fraud awareness training, including technical examples, to both Determinations
   and Examinations office employees.
•	 Alerting TE/GE Division customers of the potential fraud scenarios that have been identified
   within the customer base.
•	 Enhancing existing inventory systems to track and monitor potential fraud cases and fraud
   referrals and the results of the examinations, investigations, and referrals.
         Management's Response: The Commissioner, TE/GE Division, agreed with our
         recommendation and is implementing corrective actions. Specifically, the Directors of
         the EP and EO functions and the ITG and FSLG offices will conduct assessments to
         determine those areas (including fraud indicators for those areas) most vulnerable to
         fraud and abuse. In addition, TE/GE Division management will continue to provide
         fraud training, including technical training, to those employees within TE/GE Division
         Determinations or Examinations office staffs that require such training but have not yet
         received it.· TE/GE Division executives and senior-level employees will continue to use

12 The 7 potential fraud cases included at least 26 bond examination cases and 13 I.R.C. § 6700 examinations. Tn
addition, one potential fraud referral actually included eight different cases but was written as one referral to
simplify the process.

                                                                                                                     Page 17
         The Tax Exempt and Government Entities Division Is Making
       Progress to Detect and Deter Fraud Within Its Customer Base, but
                the Impact Cannot Be Determined at This Time



speeches, newsletters, interviews, postings to web sites, and other customer education
and outreach functions and devices to warn TE/GE Division customers of fraudulent
practices that emerge within the TE/GE Division communities and that have come to
TE/GE Division management’s attention. The TE/GE Division is planning to use two
new inventory systems and will employ them, to the degree possible, to track fraud cases
while they remain in the TE/GE Division’s control.




                                                                                 Page 18
                  The Tax Exempt and Government Entities Division Is Making
                Progress to Detect and Deter Fraud Within Its Customer Base, but
                         the Impact Cannot Be Determined at This Time



                                                                                             Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the impact of Tax Exempt and Government
Entities (TE/GE) Division management’s efforts to detect and deter fraudulent activity within
their customer base by following up on recommendations made in the Fiscal Year (FY) 2003
Treasury Inspector General for Tax Administration audit report1 and by reviewing actions
planned or initiated by TE/GE Division management since FY 2003. Specifically, we:
I.      Interviewed TE/GE Division (Headquarters) management and reviewed appropriate
        documentation to determine the division-wide initiatives or processes started or
        completed, since FY 2003, to enhance the Division’s fraud program.
II.     Interviewed Exempt Organizations (EO) and Employee Plans (EP) function and Federal,
        State, and Local Governments (FSLG), Indian Tribal Governments (ITG), and Tax
        Exempt Bonds (TEB) office management and reviewed appropriate documentation to
        determine the status of actions planned since FY 2003 and whether the actions enhanced
        their ability to detect and deter fraudulent activity.
        A.       Determined whether fraud educational material was developed and shared with
                 the EO and EP function and the FSLG, ITG, and TEB office customer bases.
        B.       Determined whether EO and EP function and FSLG, ITG, and TEB office
                 management communicated to their employees the importance of fraud
                 awareness, including the priority, and methods of deterrence and detection of
                 fraud.
        C.       Determined whether EO and EP function and FSLG, ITG, and TEB office
                 management formalized plans for providing fraud training to fraud coordinators
                 and scheduled training for compliance staff members.
        D.       Determined whether EO and EP function and FSLG, ITG, and TEB office
                 management established procedures to identify areas most vulnerable to potential
                 criminal fraud activity.
        E.       Determined whether EO and EP function and FSLG, ITG, and TEB office
                 management established procedures to ensure information items with potential
                 fraud allegations were worked by the Examinations field office with increased
                 priority.

1
 The Tax Exempt and Government Entities Division Should Pursue Additional Methods to Identify Potential
Fraudulent Activities (Reference Number 2003-10-217, dated September 2003).

                                                                                                      Page 19
       The Tax Exempt and Government Entities Division Is Making
     Progress to Detect and Deter Fraud Within Its Customer Base, but
              the Impact Cannot Be Determined at This Time



F.   Determined whether the EO function has taken action to identify fraudulent
     charity organizations being used to fund terrorist activities.
G.   Determined whether EO and EP function and FSLG, ITG, and TEB office
     management established any other processes or procedures not described in
     Steps II.A.-F., to enhance their ability to detect and deter fraudulent activity.
H.   Determined whether EO and EP function and FSLG, ITG, and TEB office
     management identified and referred potential fraud cases for development for
     criminal prosecution.
     1.     Determined the volumes, type(s), and status of potential fraudulent tax
            schemes/cases that were:
            a.      Referred to other IRS operating divisions or functional offices or to
                    other Federal Government agencies.
            b.      Accepted by the Criminal Investigation function for development
                    for criminal prosecution.
     2.     Determined the volumes, type(s), and status of any other type of
            enforcement actions taken by the EO or EP functions and the FSLG, ITG,
            or TEB offices (e.g., fraud penalties, revocation of exempt status) since
            FY 2000, other than the two scenarios noted in Step II.H.1..




                                                                                    Page 20
                The Tax Exempt and Government Entities Division Is Making
              Progress to Detect and Deter Fraud Within Its Customer Base, but
                       the Impact Cannot Be Determined at This Time



                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Director
Gerald T. Hawkins, Audit Manager
Allen L. Brooks, Lead Auditor
Deadra M. English, Senior Auditor
Gregory W. Holdeman, Senior Auditor




                                                                                      Page 21
               The Tax Exempt and Government Entities Division Is Making
             Progress to Detect and Deter Fraud Within Its Customer Base, but
                      the Impact Cannot Be Determined at This Time



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Employee Plans, Tax Exempt and Government Entities Division SE:T:EP
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Director, Government Entities, Tax Exempt and Government Entities Division SE:T:GE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                   Page 22
     The Tax Exempt and Government Entities Division Is Making
   Progress to Detect and Deter Fraud Within Its Customer Base, but
            the Impact Cannot Be Determined at This Time



                                                      Appendix IV

Management’s Response to the Draft Report




                                                             Page 23
  The Tax Exempt and Government Entities Division Is Making
Progress to Detect and Deter Fraud Within Its Customer Base, but
         the Impact Cannot Be Determined at This Time




                                                          Page 24
  The Tax Exempt and Government Entities Division Is Making
Progress to Detect and Deter Fraud Within Its Customer Base, but
         the Impact Cannot Be Determined at This Time




                                                          Page 25
